                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:          October 29, 2004

REPLY TO
ATTN OF:       11099-45-FM

SUBJECT:       Review of Public Key Infrastructure at Office of the Chief Financial
               Officer/National Finance Center

TO:            Patricia E. Healy
               Acting Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Audit Liaison Officer
               Office of the Chief Financial Officer


This report presents the results of our audit of the U.S. Department of Agriculture’s Review of
Public Key Infrastructure at Office of the Chief Financial Officer/National Finance Center. The
Office of the Chief Financial Officer’s response to the official draft, received on October 18,
2004, is included in its entirety as exhibit C with excerpts and the Office of Inspector General’s
position incorporated into the Findings and Recommendations section of the report.

Based on the information contained in the response, we have reached management decision on
all recommendations and, therefore, no further correspondence with our office is necessary. If
you have any questions, please contact me at 202-720-6945, or have a member of your staff
contact Richard Davis, Director, Administration and Finance Division, at 202-720-1918.

We appreciate the cooperation and courtesies extended to us during this review.


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
